                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Office of Environmental
                     Information Should
                     Strengthen Controls Over
                     Mobile Devices
                     Report No. 12-P-0427                    April 25, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Alicia Mariscal
                                                   Ashley Sellers-Hansen




Abbreviations

EDSD          Enterprise Desktop Solutions Division
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
MD            Mobile device
OEI           Office of Environmental Information
OIG           Office of Inspector General
OTOP          Office of Technology Operations and Planning
SOP           Standard operating procedure
WCF           Working Capital Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0427
                                                                                                           April 25, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Office of Environmental Information Should
The U.S. Environmental
                                    Strengthen Controls Over Mobile Devices
Protection Agency (EPA)
Office of Inspector General          What We Found
(OIG) received a hotline
complaint regarding misuse of       Although OEI is in the process of developing policies for domestic and
mobile devices within the           international mobile device usage, OEI has no organization-wide standard
Office of Environmental             operating procedures that explain responsibilities for OEI employees and
Information (OEI). We               contractors regarding mobile devices. OEI currently does not have effective
reviewed the effectiveness of       controls for the five areas of concern noted in the hotline complaint: issuance,
OEI’s internal controls for         disconnection, multiple devices, inappropriate use, and tracking and recovery.
mobile devices issued to OEI
employees and contractors,          We found that supervisors approve employee/contractor requests for mobile
focusing on issuance,               devices without guidance on determining the need for a device, and there is no
disconnection, multiple             guidance on the frequency with which employees can upgrade a device after it
devices, inappropriate use, and     has been issued. OEI has also not established controls to determine when to
tracking and recovery.              disconnect devices; over a 6-month period in 2011, 68 OEI employees had zero
                                    usage of their mobile devices, incurring costs of about $29,360. Moreover, OEI
Background                          managers tend not to be concerned about employees having multiple devices, and
                                    we found that eBusiness does not correctly reflect the number of devices issued
OEI provides technology             to employees. Therefore, EPA may be paying for service on mobile devices that
services for EPA, including         are not used. In addition, we found that one OEI employee and one OEI
providing telecommunications        contractor made costly personal international phone calls. Finally, procedures and
and other technologies to           controls for tracking and recovering mobile devices are missing or ineffective.
support Agency activities.
Executive Order 13589, issued        What We Recommend
on November 9, 2011, requires
agencies to assess device usage     We recommend that OEI implement standard operating procedures for each step
and establish controls on           of the mobile device process to cover all aspects of issuance, disconnection,
unused or underutilized             multiple devices, inappropriate use, and tracking and recovery. We also
equipment or services, as well      recommend that OEI follow up with OEI employees and contractors to determine
as limit the number of              business case justifications for users of multiple devices, and take appropriate
employee devices.                   action on unauthorized calls identified in the sample we reviewed. Lastly, we
                                    recommend that OEI finalize Agency-wide draft domestic and international
For further information, contact    mobile device procedures and develop other Agency-wide procedures as
our Office of Congressional and     necessary. OEI concurred with the majority of our recommendations and
Public Affairs at (202) 566-2391.   described planned actions to address our recommendations. Our
                                    recommendations remain open pending OEI’s corrective action plan with
The full report is at:
www.epa.gov/oig/reports/2012/       milestone dates, as well as additional specificity from OEI on monitoring
20120425-12-P-0427.pdf              inappropriate device usage.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                 THE INSPECTOR GENERAL




                                          April 25, 2012

MEMORANDUM

SUBJECT:	 Office of Environmental Information Should Strengthen Controls
          Over Mobile Devices
          Report No. 12-P-0427


FROM:          Arthur A. Elkins, Jr. 


TO:            Malcolm D. Jackson

               Assistant Administrator for Environmental Information and
                 Chief Information Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We will post your response on the OIG’s public website,
along with our memorandum commenting on your response. Please provide your response as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want released to the public; if your response contains such data, you should identify the data
for redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or heist.melissa@epa.gov, or Patrick Gilbride at (303) 312-6969 or
gilbride.patrick@epa.gov.
Office of Environmental Information Should                                                                                   12-P-0427
Strengthen Controls Over Mobile Devices


                                   Table of Contents 


Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                4

                 Scope and Methodology ..............................................................................               5     


   2     OEI Lacks Effective Internal Controls and Policies for Mobile Devices .......                                              7


                 Internal Controls and Policies for Mobile Devices Are Not Effective ...........                                    7

                 Conclusion...................................................................................................     12     

                 Recommendations ......................................................................................            12 

                 Agency Comments and OIG Evaluation ......................................................                         14 


   Status of Recommendations and Potential Monetary Benefits..............................                                         15 




Appendices
   A     Details on Scope and Methodology..................................................................                        17 


   B     Office of Environmental Information’s Response to Draft Report ................                                           18 


   C     Distribution .........................................................................................................    23

                                           Chapter 1

                                            Introduction
Purpose
                 The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                 (OIG) received a hotline complaint on May 16, 2011, regarding misuse of mobile
                 device (MD)1 services within the Office of Environmental Information (OEI). The
                 complaint alleged five areas of concern: issuance, disconnection, employee usage
                 of multiple MDs, fraudulent use, and tracking and recovery. Accordingly, our
                 objective was to determine whether OEI has internal controls for OEI employee
                 and contractor MDs, and whether they effectively control:

                         Issuance 

                         Disconnection 

                         Use of multiple devices

                         Inappropriate use 

                         Processes for tracking and recovery 


Background
                 Internal Control Standards

                 The U.S. Government Accountability Office Standards for Internal Control in the
                 Federal Government defines “internal control” as an integral component of an
                 organization’s management that provides reasonable assurance of effective and
                 efficient operations and compliance with applicable laws and regulations. Office
                 of Management and Budget Circular A-123 (revised 2004) states, among other
                 matters, that agency managers should take timely and effective action to correct
                 internal control deficiencies. As the Government Accountability Office
                 recognized, an internal control comprises the plans, methods, and procedures used
                 to meet missions, goals, and objectives and, in doing so, supports performance-
                 based management. Internal control is not one event, but a series of actions and
                 activities that occur throughout an entity’s operations and on an ongoing basis.

                 Office of Environmental Information

                 Headed by the Chief Information Officer, OEI supports the Agency’s mission to
                 protect public health and the environment by providing environmental
                 information that can be used to inform decisions, improve management, document


1
 For the purposes of this report, we define MDs as cellular phones and pocket-sized computing devices, typically
having a display screen with touch input or a miniature keyboard (e.g., BlackBerry).


12-P-0427                                                                                                          1
            performance, and measure success. OEI manages the life cycle of information to
            support EPA’s mission. According to its website, OEI:

               	 Identifies and implements information technology and information 

                  management solutions

               	 Ensures the quality of EPA’s information and the efficiency and reliability
                  of EPA’s technology, data collection, exchange efforts, and access
                  services
               	 Provides technology services and manages EPA’s information technology
                  investments

            OEI also works with many internal and external stakeholders and partners to
            implement information-related policies and procedures. OEI had approximately
            416 employees as of June 2011. In fiscal year (FY) 2011, OEI spent $465,871 on
            MD services.

            OEI’s Office of Technology Operations and Planning (OTOP) supports the
            Agency’s information systems and products. OTOP’s Enterprise Desktop
            Solutions Division (EDSD) provides local area network, telecommunications, call
            center, and desktop support, and manages MD service.

            Working Capital Fund and eBusiness

            OEI OTOP procures mobile telecommunication services through EPA’s Working
            Capital Fund (WCF). EPA’s WCF operates like a commercial business, offering a
            wide range of administrative services, including financial management,
            information technology, telecommunications, rent and facilities, printing, and
            transportation services. EPA’s WCF provides services in four business lines, one
            of which includes the Agency’s computer and telecommunications services. All
            EPA WCF business is conducted through eBusiness, a Web application in which
            users establish the necessary accounts, shop for WCF products and services via an
            online catalog, obtain products and services, and monitor usage. EPA’s
            application of the WCF and utilization of eBusiness promotes transparency by
            making product, cost, and usage information available in a Web-based platform
            accessible to EPA office account managers and supervisors.

            Policies and Procedures for Mobile Devices

                   Limited Personal Use of Government Office Equipment

                   In 2004, EPA issued Order 2101.0, Limited Personal Use of Government
                   Office Equipment, which applies to all employees. The policy states that
                   employees may use government office equipment only for authorized
                   purposes. The policy also authorizes limited personal use during non-work
                   time if the personal use:




12-P-0427                                                                                    2
                  Involves minimal additional expense to the government
                  Does not reduce productivity or interfere with official duties or the
                   official duties of others
                  Is by an employee already authorized to use the equipment for
                   official government business
                  Is legal and appropriate

            The policy specifies that users should not expect privacy when engaged in
            limited personal use of government office equipment, and that users
            should not give the appearance that personal use is in an official capacity.
            The policy also gives examples of inappropriate personal uses (e.g.,
            making long-distance phone calls), and the consequences for misuse of
            government office equipment. The policy explains that managers and
            supervisors may further restrict personal use based on the needs of the
            office or problems with unauthorized or inappropriate use.

            Cellular Equipment/Services Acquisition and Use Manual

            Issued in 2002, EPA’s Cellular Equipment/Services Acquisition and Use
            Manual establishes directives for the acquisition and use of cellular
            equipment and services nationwide. The manual states:

                   Cellular telephones and other cellular equipment are to be
                   used only for the conduct of official Government business.
                   Federal Information Resources Management Regulation
                   (FIRMR) and Code of Federal Regulations, Titles 5 and 41,
                   address disciplinary actions and collection efforts that can
                   be taken against Federal employees who misuse
                   Government property or services. This includes the
                   unauthorized use of Government owned property, such as
                   cellular devices, with the intent to later reimburse the
                   Government.

            The manual requires cellular instruments to be accounted for and managed
            in accordance with appropriate EPA property accountability procedures.

            Personal Property Management Policies

            EPA’s Personal Property Policy and Procedures Manual is the
            authoritative reference for EPA’s management of personal property. The
            manual provides policy and procedural guidance on personal property
            management issues for EPA employees and contractors. The manual
            defines personal property as any property except real property (and defines
            real property as land, together with the improvements, structures, and
            fixtures located thereon). All EPA employees and contractors must adhere


12-P-0427                                                                              3
                   to the policy and procedures set forth in the manual when executing
                   personal property management functions on behalf of EPA.

                   Custodial Officer Online Training and Guide

                   EPA’s Custodial Officer Online Training explains a custodial officer’s
                   responsibilities for the three stages in the personal property life cycle—
                   acquisition, utilization, and disposition. The training describes a number of
                   standard operating procedures (SOPs) (e.g., conducting annual and
                   quarterly physical inventories and records management), some of which
                   serve as internal controls. The Custodial Officers’ Guide is an extension of
                   the online training, with more detailed examples. This guide provides
                   information on rules and regulations that form the basis for property
                   management, discusses the property management program within EPA,
                   and focuses on the specific roles and responsibilities of a custodial officer
                   within the property management structure. As with the training, the guide
                   offers examples of SOPs and internal controls (e.g., key forms and
                   documents for different tasks, a physical inventory process map, and a
                   custodial officer checklist).

Noteworthy Achievements
            EPA’s Mobile Device Service Review and Optimization Analysis

            In August 2010, EPA hired a contractor to execute a service review for the
            Agency’s MD service program, including benchmarking current MD service
            plans and support contracts, documenting total cost of ownership, and
            recommending service optimization opportunities. As part of this study, the
            contractor reviewed usage data as a percentage of total available plan minutes to
            identify devices that were not being used or were underused over a 6-month
            period (January–March 2010 and May–July 2010). MD usage was categorized as
            falling under 1, 10, 20, and 30 percent of the monthly plan available minute
            allotment. Although the contractor found that, overall, the MD service program is
            sound, the report identified areas where EPA should take immediate action to
            further optimize the quality of the service and reduce costs associated with service
            delivery.

            Recent Procedural Document and SOP Drafts

            In 2011, OEI drafted a number of procedural documents and SOPs pertaining to
            MDs specifically or personal property in general. These include:

               	 International Travel Procedure for Mobile Devices, which covers the
                   process EPA employees and contractors must follow to comply with the
                   provisions of the Agency’s network security policy and safeguard EPA-
                   issued MDs while on international travel


12-P-0427                                                                                     4
               	 Mobile Device and Wireless Network Procedures, which includes
                   requirements for implementing and managing the domestic use of EPA-
                   owned MDs, including only using MDs to perform official government
                   duties
               	 An Asset Management Plan for the proper management of all information
                   technology assets, including SOPs to address acquisition, use, and
                   physical security
               	 Personal Property Management, which provides OEI employees with
                   the SOPs to properly acquire, receive, inventory, maintain, and reutilize or
                   dispose of personal property.

            Though not in place during the time of our review, once finalized, these policies
            and SOPs could help address the problems we describe in chapter 2.

            Use of Pooled Voice Plans

            To anticipate and mitigate overages by any one user, EPA uses a 200-minute
            pooled plan with one vendor and a 300-minute pooled plan with another. The
            pooled plans makes these minutes available to anyone on the account, which can
            help the Agency avoid costs for overages. EPA has never exceeded the total
            minute allowance of each pooled plan, and uses roughly 85 percent of the minutes
            available in carrier pools each month.

Scope and Methodology
            We conducted our field work from June 2011 to February 2012 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objective. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objective.

            To address our objective, we reviewed policies and procedures (OEI-specific and
            Agency-wide) for MDs as well as those related to the personal use of MDs,
            including those described in the “Background” section. We also reviewed
            Executive Order 13589, Promoting Efficient Spending, issued on November 9,
            2011, which asks each federal agency to take steps to limit the number of MDs
            issued to employees.

            We interviewed the OIG budget team (in charge of MD payments) to benchmark
            and understand the process for managing MDs prior to discussions with OEI. We
            then interviewed OEI headquarters staff responsible for developing and
            overseeing policies and procedures, including:

                  WCF MD services manager
                  Associate director for business management


12-P-0427                                                                                       5
                  Acting branch chief, Call Center and Business Management Branch
                  Account managers
                  WCF coordinator
                  Property/custodial officers

            We also interviewed a regional technical services unit chief to get an “outside
            OEI” perspective on some of the allegations raised in the hotline complaint,
            specifically on multiple MDs and inappropriate use. We also corresponded with
            the hotline complainant and reviewed materials the complainant provided.
            Specific steps we took to address each of the five areas of concern in the hotline
            complaint are presented in appendix A.

            Limitations

            We were unable to determine the total number of MDs issued to OEI contractors
            through the WCF. OEI does not know whether its employees or contractors
            received MDs through other OEI contracts outside of OEI’s EDSD Service
            Agreement in eBusiness. In addition, EDSD did not know of a way to obtain that
            information. We were also unable to determine how much OEI spends on MD
            accessories each year because OEI does not track the cost of MD accessories or
            the accessories themselves.




12-P-0427                                                                                        6
                                  Chapter 2

            OEI Lacks Effective Internal Controls and 

                  Policies for Mobile Devices 

             OEI supervisors issue MDs without guidance, and no clear requirements exist for
             how long employees should keep MDs before upgrading devices. Also:

                   A number of OEI employees do not use their MDs. 

                   OEI managers have little concern about employees having multiple MDs.

                   One OEI employee and contractor used their EPA-issued MDs to make 

                    personal international calls.
                   The Agency does not track MD accessory purchases
                   eBusiness does not correctly reflect the number of MDs issued to
                    employees.

             A number of Agency-wide policies and procedures relate to the use of MDs, and
             OEI is in the process of developing policies on domestic and international MD
             usage. However, OEI does not currently have effective internal controls or SOPs for
             OEI employees and contractors addressing MD issuance, disconnection, employees
             with multiple MDs, inappropriate use of MDs, and MD tracking and recovery. As a
             result, EPA may be wasting government resources by allowing some OEI employees
             to have multiple MDs without sufficient justification, allowing employees to have
             MDs without a sufficient business case, and incurring high charges from employees
             and contractors who make personal international calls.

Internal Controls and Policies for Mobile Devices Are Not Effective
             Initial Mobile Device Issuance and Upgrades

             Our findings indicate that a majority of OEI staff have an MD, but some may not
             need the device to perform their official government duties. Further, employees
             are upgrading their MDs more frequently than the industry standard. Executive
             Order 13589, Promote Efficient Spending, asks each federal agency to take steps
             to limit the number of MDs issued to employees. We found that OEI lacks SOPs
             regarding MD issuance and upgrades for OEI employees and contractors. As a
             result, EPA may be wasting resources by issuing MDs to employees who do not
             need them and upgrading MDs earlier than necessary.

             OEI does not have guidance for managers to help them determine whether a business
             case exists for an employee to be issued an MD. OEI has issued 434 MDs—306 to
             OEI employees and 128 to OEI contractors. As of June 2011, OEI had approximately
             416 employees, and was unable to provide information on the number of contractor
             employees. When OEI employees need an MD, they place the request with their



12-P-0427                                                                                      7
                    immediate supervisor. Currently, neither OEI nor an OEI-contracted firm require that
                    supervisors apply criteria or complete any form on the business case justification for
                    MD requests, which results in OEI supervisors making MD approvals without
                    guidance. In FY 2011, OEI spent $465,871 on MD service.

                    OEI does not have a policy on how frequently OEI employees and contractors can
                    upgrade their MDs. According to OEI, cell phone carriers require federal
                    employees to wait a minimum of 1 year before they can request an upgraded
                    device. We learned that, in some cases, OEI employees upgrade their devices
                    before 1 year by canceling their current line and transferring their device to
                    someone else in OEI. Two custodial officers thought that OEI staff should be
                    required to keep a device for 1 year before requesting an upgrade. A regional
                    technical services unit chief believes it is reasonable to get a new device every
                    2 years.

                    We also found that no policies or SOPs exist for custodial officers regarding the
                    appropriateness of type and number of MD accessories. OEI bankcard holders or
                    custodial officers purchase MD accessories through eBusiness and the WCF, or
                    with a bankcard. MD accessories, including cases, headsets, and chargers, can be
                    purchased with a bankcard because they are nonaccountable property, do not
                    contain any EPA data, and do not need an EPA property decal. OEI does not track
                    the cost of MD accessories or the accessories themselves. One account manager
                    said that the accessories may not be utilized.

                    OEI has drafted the Mobile Device and Wireless Network Procedures, which aims
                    to require employees and contractors to submit requests to receive an MD, along
                    with a business justification, to their manager for consideration. However, OEI
                    has not finalized these procedures.

                    Mobile Device Disconnection

                    OEI does not direct custodial officers or account managers to regularly request
                    and review utilization reports, which are available at any time, and OEI staff
                    persons working with property are not always notified when an employee leaves
                    EPA or transfers to a new EPA program office. Executive Order 13589,
                    Promoting Efficient Spending, states that agencies should assess current device
                    usage and establish controls to ensure that agencies do not pay for underutilized
                    or unused equipment or services. However, no SOPs exist regarding
                    disconnection for OEI employees and contractors, nor are there controls for
                    supervisory review/renewal of the need for continued MD service. As a result,
                    EPA may be paying for MD service on devices that are not being used.

                    A November 2011 zero usage report2 found that 68 OEI employees had zero
                    usage over a 6-month period in 2011. The cost for these 68 monthly MD service

2
    A zero usage report identifies employees who did not use their cell phones or BlackBerrys in any manner.


12-P-0427                                                                                                      8
                  bills for the 6-month period was approximately $29,360.3 OEI indicated that these
                  zero usage users may need to retain active service on these accounts because,
                  depending on the employee, the lack of use may be cyclical or the MD may only
                  be needed for travel or emergency situations.

                  In addition, OEI staff responsible for property (hereafter “OEI property staff”) are
                  not always notified when an employee leaves EPA or transfers to a new EPA
                  program office. The eBusiness FY 2011 MD Service Description states that the
                  customer must cancel MD service through eBusiness. However, an OEI property
                  staff person indicated that OEI employees are unsure of the procedures to follow
                  when they no longer need an MD, move to a different EPA program office, or
                  leave the Agency. Thus, OEI property staff are not notified when a user’s service
                  should be disconnected. One OEI property staff person contacts MD numbers if
                  questions exist regarding usage and whether the employee still works for OEI.
                  This OEI property staff person stated that the MD is disconnected if repeated
                  messages go unanswered or if call recipients do not identify themselves as EPA
                  employees.
                   
                  Multiple Mobile Devices

                  OEI allows some employees to have both a cell phone and a BlackBerry for
                  comfort purposes (i.e., employees claim to be more comfortable using a cellular
                  phone to make calls and a Blackberry to check e-mail), and account managers and
                  custodial officers are not updated with the correct end user information, resulting
                  in inaccurate data in eBusiness. Executive Order 13589, Promote Efficient
                  Spending, asks each federal agency to take steps to limit the number of MDs
                  issued to employees. OEI lacks internal controls regarding multiple devices; it has
                  no SOPs that prohibit employees from having multiple MDs. Further, inaccurate
                  information in eBusiness may falsely indicate that staff have multiple MDs. As a
                  result, EPA is unnecessarily expending resources on multiple MDs for OEI
                  employees, and may be paying for MD service on devices that are not being used.

                  eBusiness records from June 14, 2011, indicate that 49 OEI employees had
                  multiple devices. On October 19, 2011, we requested that OEI employees with
                  more than one MD provide confirmation of use for each registered device as well
                  as a business case justification for using more than one MD. Of the 44 responses
                  from the 49 OEI employees we contacted,4 27 confirmed that they only have one
                  device, which means that eBusiness does not have accurate information. Those
                  with multiple MDs gave varied responses as to why they need those devices.
                  Table 1 lists employee and manager justifications for multiple MDs.



3
   Calculated by multiplying the average per-user monthly bill of $71.96 for OEI MD service by 68 (number of 

employees) and 6 (number of months), rounding up to the nearest dollar. 

4
   We learned that five of those we contacted are no longer employed by OEI, and the status of their devices is

unknown.
 


12-P-0427                                                                                                          9
                 Table 1: OEI justifications for employee possession of multiple MDs
                   Registering extra devices for future     Ensuring communications during
                     use by new employees                      international travel
                   Needing a working device when            Being able to provide a device if a
                     original is broken                        senior manager/official requests one
                   Neglecting to return an international    Needing an employee to be available
                     loaner device                             around the clock
                   Needing a back-up device for work-       Providing a device to a contractor
                     related travel
                 Source: OIG analysis of responses provided by OEI staff and MD service manager.

                 While we found little concern among OEI managers about employees having
                 multiple MDs, OEI property staff responsible for tracking inventory expressed
                 concern about this issue. One custodial officer indicated that some OEI property
                 staff will review inventory on a monthly basis to ensure that eBusiness has MDs
                 correctly registered to the proper end user. Multiple MDs often appear in
                 eBusiness under one person’s name, but the MD does not actually belong to that
                 person. Because account managers and custodial officers are not updated with the
                 correct end user information, eBusiness does not reflect accurate information. OEI
                 recognizes that outdated information in eBusiness can indicate that some staff
                 have multiple MDs when they may not.

                 Inappropriate Use of Mobile Devices

                 We found that one OEI employee and one OEI contractor incurred high
                 international roaming charges on their EPA-issued MDs while traveling for
                 personal reasons. EPA Order 2101.0, Limited Personal Use of Government Office
                 Equipment, states that employees may use government office equipment only for
                 authorized purposes. OEI has not established internal controls for inappropriate
                 use of MDs. At the time of our review, there were no finalized SOPs defining
                 inappropriate use of MDs or the manner in which confirmed cases of
                 inappropriate use should be handled. When inappropriate use goes unnoticed,
                 EPA pays for excess charges.

                 We reviewed call detail reports5 and eBusiness/WCF billing reports covering a
                 6-month period (January–June 2011)6 to identify questionable costs, including
                 high costs and international charges. We found that 19 OEI employees and
                 contractors had made personal international phone calls during that 6-month
                 period, incurring high charges as a result. Phone calls were made to/from, among
                 other places, Denmark, El Salvador, Ethiopia, France, Germany, Honduras, Italy,
                 Kenya, Spain, Sudan, and Turkey. International charges for these 19 employees
5
  Call detail reports provide detailed information regarding all incoming and outgoing phone calls made to and from
an MD. For our review, OEI provided call detail reports from four cell phone carriers—AT&T, Verizon, Sprint, and
T-Mobile.
6
  The OEI billing invoices we reviewed follow a billing cycle that begins the last week of one month and ends the
last week of the following month. Therefore, some of the charges included in our analysis occurred either in
December 2010 or July 2011. Two examples of billing invoice statements that included these months are those from
12/24/10 to 01/23/11 and 06/24/11 to 07/23/11.


12-P-0427                                                                                                       10
                  and contractors during the 6 months totaled $4,136.49. OEI management stated
                  that unless an OEI employee is attending a conference in an international location,
                  the majority of OEI’s work happens domestically. This statement suggests that
                  most international calls are not taking place for business purposes.

                  From the sample of 27 employees and contractors, we selected for further review
                  1 OEI employee and 1 OEI contractor who had inappropriately used their MDs
                  while traveling internationally for personal reasons.7 Managers confirmed that
                  both individuals traveled abroad for personal reasons and used their government-
                  issued MDs to make personal phone calls and send text messages while traveling.
                  The OEI employee incurred charges of $1,331.37 for international roaming and
                  other usage charges in a 1-month period. The contractor incurred charges of
                  $824.69 for international roaming and other usage charges over a 2-month period.
                  For both individuals, the charges went unnoticed by account managers and
                  supervisors, and EPA paid for the charges.

                  OEI supervisors and account managers do not review or monitor invoices in
                  eBusiness on a regular basis, but rather at the end of the fiscal year, and one
                  account manager is responsible for reviewing the records of hundreds of
                  employees/contractors. However, if inappropriate use becomes apparent,
                  supervisors deal with it on a case-by-case basis. Some supervisors may terminate
                  MD service or expect the employee to repay the costs. In our sample, the OEI
                  employee received a warning, whereas the contractor’s supervisor was going to
                  direct the contractor to repay the costs of the personal international calls.

                  OEI has two draft procedural documents related to inappropriate use of MDs. The
                  draft Mobile Device and Wireless Network Procedures instructs EPA employees,
                  managers, contractors, and grantees to consult with their managers if they have
                  questions regarding the appropriate use of their MDs. The draft International
                  Travel Procedure for Mobile Devices states that EPA-issued MDs and laptops are
                  only for government-authorized uses.

                  Processes for Tracking and Recovering Mobile Devices

                  OEI does not effectively track and recover all MDs. The Custodial Officers’
                  Guide states that custodial officers are to enter property data into receiving logs
                  and apply decals to the property, enter the information into the Integrated
                  Financial Management System,8 and deliver the decaled property to the end user.
                  The guide and the Office of Administration and Resources Management Facilities
                  Management and Services Division’s EPA Personal Property Policy and
                  Procedures Manual lists cellular telephones and BlackBerrys as sensitive items.
                  Both define sensitive items as nonexpendable items that may be converted to

7
  Our billing invoice analysis found that 8 of 27 OEI employees and contractors did not make any international calls.
We selected 1 OEI employee and 1 OEI contractor for further review. Of the 27 in our sample, we did not verify
whether the remaining 17 employees and contractors with international calls made those calls for personal reasons.
8
  As of October 21, 2011, Compass replaced the Integrated Financial Management System.


12-P-0427                                                                                                         11
                 private use or have a high potential for theft, and that must be recorded as
                 accountable property. This type of accountability requires property to be tracked
                 throughout its life cycle, regardless of cost or value. However, OEI employees
                 and contractors do not have SOPs on their role in the MD tracking and recovery
                 process, resulting in inaccurate equipment records and wasted resources in trying
                 to reconcile and track property. 

                 We verified that OEI custodial officers decal MDs as sensitive items, maintain
                 property inventory spreadsheets, and report lost or stolen MDs to the Board of
                 Survey.9 However, we found that (1) OEI employees and contractors do not
                 always notify custodial officers when MDs are transferred to other end users;
                 (2) on some occasions, when a new employee needs a device, OEI will put a
                 current employee’s name on the account but will not go back into eBusiness to
                 update records to reflect the correct end user; and (3) OEI employees are unaware
                 of what to do with MDs once they no longer need them and do not properly return
                 MDs when they are no longer in use. As a result of these situations, MDs may not
                 be registered to the correct end user in eBusiness.

Conclusion
                 Developing and implementing organization-wide, detailed SOPs will help ensure
                 that OEI has controls for issuance, disconnection, multiple MDs, inappropriate
                 use, and tracking and recovery. Further, it is important that OEI improve its
                 financial management of MDs by requiring business case justifications for users
                 generally and users of multiple MDs, and taking appropriate action to identify and
                 eliminate unauthorized calls.

Recommendations
                 We recommend that the Assistant Administrator for Environmental Information
                 and Chief Information Officer:
         
                     1.	 Develop and implement SOPs for OEI employees and contractors, as well
                         as account managers/property staff, on each step of the MD process. SOPs
                         should:

                          a.	 Require custodial officers to, on a quarterly basis, verify/confirm the
                              accuracy of eBusiness information on MD user registration and
                              utilization.

                          b.	 Develop standardized business case justifications for issuing an MD
                              that supervisors can utilize. Require supervisors to review
                              justifications annually.

9
 The Board of Survey serves as a fact-finding body charged with determining the circumstances and conditions of
each case in which EPA property is declared lost, damaged, or destroyed.


12-P-0427                                                                                                     12
               c.	 Develop an appropriate MD upgrade and replacement schedule
                   consistent with the industry standard for upgrading wireless devices
                   that includes conditions and justifications for approving upgrades
                   sooner than the standard.

               d. Address the number and type of MD accessories that may be
                  purchased, and require custodial officers to track accessory costs.

               e. Include standard procedures for addressing inappropriate use of an
                  MD, including consequences.

               f. Develop eBusiness design changes that would trigger the system to
                  notify account managers when a predetermined cost threshold is
                  reached, which may indicate potentially inappropriate use of an MD.

               g. Allow approved users to possess either a cell phone or a BlackBerry,
                  or require additional documented justification and annual review if an
                  employee requires multiple devices.

               h. Review the business need for MD users with low utilization of their
                  monthly plan minute allotments (less than 1, 10, 20, and 30 percent
                  utilization as described in EPA’s Mobile Device Service Review and
                  Optimization Analysis) and terminate service where appropriate.

               i. Require end users to notify their property staff when they no longer
                  need a device, transfer to another EPA program office, or leave the
                  Agency. Instruct end users on the proper procedure for turning in their
                  MDs.

            2. Follow up with OEI managers and determine:

               a.	 Whether there is a valid business case justification for those staff using
                   multiple MDs, and determine whether one of the devices should be
                   returned to the Agency.

               b.	 Whether the international calls made during January–June 2011 by the
                   remaining 17 OEI employees and contractors we identified in our
                   sample of 27 were inappropriate, and take action based on SOPs
                   developed per recommendation 1.

            3. Finalize Agency-wide draft domestic and international MD procedures
               and develop other Agency-wide procedures as necessary that consider
               SOPs that encompass the areas listed in recommendation 1.




12-P-0427                                                                                 13
Agency Comments and OIG Evaluation
            OEI concurred with all of our recommendations except for 1-d and 1-f. On 1-d,
            OEI correctly notes that EPA’s Personal Property Policy and Procedures Manual
            does not include items valued at less than $5,000 unless they are sensitive items;
            however, the Custodial Officers’ Guide does require an EPA property decal on
            accessories. We support OEI’s plan to include in the SOP a standardized
            accessories list in the business case justifications for MD issuance, and we urge
            OEI to base accessory purchases on need and requests from users. This would
            mitigate one instance we heard about during our review where an account
            manager said they ordered all accessories that came with the device in advance
            and then gave them to the employee who said they did not want them. The
            account manager said they kept unwanted accessories and gave them to another
            person at a later time, and learned not to order as many accessories before users
            request them. Another account manager said that accessories are usually approved
            for staff, and OEI does not know how much it spends on accessories each year.
            We agree that OEI’s planned SOP should address necessity and use of MD
            accessories.

            On 1-f, we agree with OEI that adequate information sources exist where account
            managers can monitor mobile device usage; however, we learned that account
            managers do not regularly review these sources. One account manager, who
            oversees hundreds of contractors, said they only review usage once a year at the
            end of the fiscal year and not on a more routine basis. This account manager
            oversaw the inappropriate charges that formed the basis for the May 2011 hotline
            complaint to our office; however, the account manager did not notice these
            charges until the manager’s review at the end of the fiscal year (September 2011).
            As of the date of an interview with us in October 2011, another account manager
            had not reviewed any usage in 2011, and this account manager only oversees 12
            users as opposed to the aforementioned account manager’s workload. While OEI
            receives “zero usage reports” from carriers on a regular basis and custodial
            officers and account managers can request a utilization report at any time, account
            managers do not routinely review them but for once annually. As such, OEI needs
            to do more than “educate” account managers on usage reports. This
            recommendation remains unresolved pending more specificity from OEI on
            monitoring inappropriate device usage. OEI’s comments on not exceeding
            Agency-wide pooled minutes does not address the appropriateness of having staff
            retain devices when those staff had zero usage over a 6-month time frame.

            Appendix B contains OEI’s full response to our draft report and planned actions
            to address our recommendations. Our recommendations remain open pending
            OEI’s corrective action plan with milestone dates—particularly for the primary
            SOP OEI cites throughout its response—as well as additional specificity from
            OEI on monitoring inappropriate device usage.




12-P-0427                                                                                     14
                           Status of Recommendations and
                             Potential Monetary Benefits
                                                                                                                           POTENTIAL MONETARY
                                             RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                               Planned
 Rec.   Page                                                                                                  Completion   Claimed    Agreed-To
 No.     No.                       Subject                          Status1         Action Official              Date      Amount      Amount

  1      12    Develop and implement SOPs for OEI employees                    Assistant Administrator for
               and contractors, as well as account managers/                   Environmental Information
               property staff, on each step of the MD process.                and Chief Information Officer
               SOPs should:
                 a.    Require custodial officers to, on a            O
                       quarterly basis, verify/confirm the
                       accuracy of eBusiness information on
                       MD user registration and utilization.
                 b.    Develop standardized business case             O
                       justifications for issuing an MD that
                       supervisors can utilize. Require
                       supervisors to review justifications
                       annually.
                 c.    Develop an appropriate MD upgrade and          O
                       replacement schedule consistent with the
                       industry standard for upgrading wireless
                       devices that includes conditions and
                       justifications for approving upgrades
                       sooner than the standard.
                 d.    Address the number and type of MD              O
                       accessories that may be purchased, and
                       require custodial officers to track
                       accessory costs.
                 e.    Include standard procedures for                O
                       addressing inappropriate use of an MD,
                       including consequences.
                 f.    Develop eBusiness design changes that          O
                       would trigger the system to notify account
                       managers when a predetermined cost
                       threshold is reached, which may indicate
                       potentially inappropriate use of an MD.
                 g.    Allow approved users to possess either a       O
                       cell phone or a BlackBerry, or require
                       additional documented justification and
                       annual review if an employee requires
                       multiple devices.
                                                                                                                             $29
                 h.    Review the business need for MD users          O
                       with low utilization of their monthly plan
                       minute allotments (less than 1, 10, 20, or
                       30 percent utilization as described in
                       EPA’s Mobile Device Service Review and
                       Optimization Analysis) and terminate
                       service where appropriate.
                 i.    Require end users to notify their property     O
                       staff when they no longer need a device,
                       transfer to another EPA program office, or
                       leave the Agency. Instruct end users on
                       the proper procedure for turning in their
                       MDs.




12-P-0427                                                                                                                                    15
                                                                                                                                  POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                         Subject                           Status1         Action Official              Date      Amount      Amount

     2        13    Follow up with OEI managers and determine:                        Assistant Administrator for
                                                                                      Environmental Information
                      a.    Whether there is a valid business case           O       and Chief Information Officer
                            justification for those staff using multiple
                            MDs, and determine whether one of the
                            devices should be returned to the Agency.
                      b.    Whether the international calls made             O
                            during January–June 2011 by the
                            remaining 17 OEI employees and
                            contractors we identified in our sample of
                            27 were inappropriate, and take action
                            based on SOPs developed per
                            recommendation 1.

     3       13     Finalize Agency-wide draft domestic and                  O        Assistant Administrator for
                    international MD procedures and develop other                     Environmental Information
                    Agency-wide procedures as necessary that                         and Chief Information Officer
                    consider SOPs that encompass the areas listed in
                    recommendation 1.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0427                                                                                                                                           16
                                                                                           Appendix A

                     Details on Scope and Methodology
Table A-1: OIG steps to investigate hotline complaint
 Area of concern      Steps
 Issuance                Reviewed eBusiness records and other sources to identify the number of OEI
                          staff with MDs and related costs
                         Discussed business case justifications with supervisors
 Disconnection           Interviewed a custodial officer on the process for assessing usage and
                          determining disconnections
                         Reviewed a November 2011 zero usage report to identify OEI employees who
                          did not use their MDs in any manner over a 6-month period
 Multiple MDs            Reviewed eBusiness records and files OEI provided identifying staff with
                          multiple MDs
                         Queried staff, managers, and a custodial officer as to the business case
                          justification for having multiple MDs
 Inappropriate use       Reviewed call detail reports and eBusiness/WCF billing reports covering a
                          6-month period (January–June 2011) to identify questionable costs,
                          including high costs and international charges
                                  o Held a webinar with the WCF Mobile Device Services Manager and
                                      an EDSD contractor to understand how the source data delivered
                                      from the carriers is converted into a Microsoft Excel file, known as a
                                      CDR, which OEI provided us for our analysis.
                                  o Using a filter in the CDRs, we identified all calls made to
                                      international locations and calls with charges over $20.00.
                                  o We analyzed the eBusiness/WCF billing reports by the OEI account
                                      managers, which resulted from our CDR analysis, for international
                                      roaming charges and charges over $100.00.
                         Reviewed billing invoices on a sample of OEI and contractor personnel we
                          identified as having questionable charges and discussed charges and
                          responsive actions with account managers and two supervisors (one who
                          supervises an EPA employee and one who supervises a contractor)
                                   o Held a webinar with a Business Analyst/Billing Invoices Manager
                                      and the WCF Mobile Device Services Manager to understand how
                                      OEI downloaded the MD billing invoices from the carrier website to
                                      provide them to us in an Adobe PDF format for our analysis.
                                   o The final billing invoices sample included all persons identified with
                                      international roaming charges in the CDR and eBusiness billing
                                      reports by account manager.
 Tracking and            Reviewed eBusiness records to ascertain appropriate end user registrations
 recovery                Interviewed custodial officers on the process for obtaining MDs once staff no
                          longer needs them
                         Reviewed a memo titled "Missing Accountable Personal Property" to determine
                          if missing items of accountable property were MDs within OEI
Source: OIG.




12-P-0427                                                                                               17
                                                                                                 Appendix B

                     Office of Environmental Information’s
                            Response to Draft Report




    In response to the draft Audit Report, "Office of Environmental Information Should Strengthen Controls
    Over Mobile Devices, Project Number OA-FYII-0278", the Office of Environmental Information is
    pleased to provide you with our responses to the following OIG recommendations.

1. 	 Develop and implement Standard Operating Procedures (SOPs) for OEI employees and contractors, as
     well as account managers/property staff, on each step of the Mobile Devices (MD) process. SOPs should:

a. 	 Require custodial officers to, on a quarterly basis, verify/confirm the accuracy of eBusiness information
     on MD user registration and utilization.

    Concur. OEI's Office of Planning, Resources and Outreach (OPRO) plans to develop a SOP to ensure
    that both the custodial officers and Working Capital Fund (WCF) Account Managers do their part to
    verify/confirm the accuracy of eBusiness registration and utilization.

b. 	 Develop standardized business case justifications for issuing a MD that supervisors can utilize. Require
     supervisors to review justifications annually.

    Concur. The planned SOP will develop standardized business case justifications for issuing a MD that a
    supervisor can utilize. OEI plans to develop the SOP to require supervisors to review justifications
    annually by coordinating with the WCF account manager.

c.	 Develop an appropriate MD upgrade and replacement schedule consistent with the industry standard for



    12-P-0427                                                                                                   18
   upgrading wireless devices that includes conditions and justifications for approving upgrades sooner than
   the standard.

   Concur. OEI plans to develop two actions for this recommendation. The two actions are as follows:

       1.	 Develop an appropriate MD upgrade and replacement schedule consistent with the industry
           standard for upgrading wireless devices.
       2.	 Promulgate a schedule that includes conditions and justifications for approving upgrades sooner
           than the standard.

   In response to action 1: OTOP procures mobile devices for EPA WCF customers (including OEI) who
   place orders in eBusiness using EPA contracts with our carriers that were established via Blanket
   Purchase Agreements (BPAs). In turn, these BPAs use GSA's Federal Supply Schedule (FSS) contracts
   with our carriers that have terms/conditions that dictate when a mobile device can be upgraded which is
   based on the length of time each line of service has been in place. Per GSA FSS contracts with the
   carriers, the minimum length of time for an existing line of service that qualifies for a zero cost equipment
   upgrade is one year. These terms/conditions apply across all agencies that use GSA's FSS carrier
   contracts including EPA. These one-year terms/conditions are applicable to the federal government
   which is different than the commercial service entity carriers provided to consumers (typically 18 months
   to 2-years before an upgrade can be requested).

   EPA WCF customers can select either zero cost equipment or equipment that has a significant 

   government discount that is offered by the carrier that is much lower. Most EPA WCF customers, 

   including OEI customers, select the zero cost equipment option available from the carriers. 


   Corrective Action: 

   OTOP will recommend/communicate via established communication sources (i.e., WCF monthly reports, 

   etc.) that WCF customers should use the zero cost equipment option when replacing mobile devices. The 

   aforementioned action will be communicated to OEIIOPRO within a 30-day time frame commencing in 

   April 2012. In addition, OTOP will provide this same information for inclusion in the Agency Mobile 

   Device and Wireless procedure when finalized. 


   In response to action 2: OPRO plans to include in the SOP a schedule that includes conditions and 

   justifications for approving upgrades sooner than the standard. 


d.	 Address the number and type of MD accessories that may be purchased, and require custodial officers to
    track accessory costs.

   Do not concur. OEI believes it is not efficient or in keeping with Agency policy for custodial officers to
   track MD accessories. In addition, tracking the cost of such items alone is not likely to decrease
   acquisitions of MD accessories. EPA's Personal Property Policy and Procedures manual does not
   include items valued at less than $5,000 unless they are sensitive items.

   However, OEI plans to include in the SOP a standard accessories list in the standardized business case
   justifications for issuance of MD that supervisors can utilize. Use of the SOP will result in both more
   efficient methods of acquiring MD accessories (through eBusiness) while providing information about
   their necessity and likely use.



   12-P-0427                                                                                                    19
e.	 Include standard procedures for addressing inappropriate use of a MD, including consequences.

    Concur. The planned SOP will reference the Agency's conduct and discipline Order and the Agency's
    Disciplinary Handbook to determine appropriate consequences when inappropriate use of a MD is
    determined.

f.	 Develop eBusiness design changes that would trigger the system to notify account managers when a
    predetermined cost threshold is reached, which may indicate potentially inappropriate use of a MD.

    Do not concur. OEI believes there are adequate information sources currently available for individual
    account managers to monitor mobile device usage without the establishment of thresholds. OEI/OTOP
    will continue to work with account managers to educate them on usage reports.

    In December 2011, this request was put before the eBusiness Configuration Control Board (CCB) under
    request number 11871, and it was disapproved as an ineffective approach to managing usage under the
    pooled minutes plan. The Board noted that the eBusiness sorting capability will support reviewing bills
    from high to low values to review charges in lieu of maintaining thresholds. This Board is primarily made
    up of customer representatives from the different EPA program and regional offices.

    eBusiness currently offers a service specific report for all mobile devices which displays account
    information, office, user, charges, minutes used, rate plan and device. The report can be sorted to review
    minutes used by account by user without the need to set thresholds. Since the Mobile Device Service has
    moved from individual rate plans to Agency-wide pooled minutes, no one is assigned to a measureable
    rate plan. A threshold would have to be set for each user based on an average of "normal" device activity.
    Since the inception of the pooled minutes plan, the EPA has not exceeded the total pool threshold and no
    additional charges for additional minutes have occurred. In addition, we currently have an EPA
    inventory of just under 6,600 units which would make the individual calculation of thresholds an
    unnecessary expense.

g.	 Allow approved users to possess either a cell phone or a BlackBerry, or require additional documented
    justification and annual review if an employee requires multiple devices.

    Concur. OPRO will include within the planned SOP a standardized business case justification for MD
    issuance. This information can assist supervisors in determining if additional devices are needed.

h.	 Review the business need for MD users with low utilization of their monthly plan minute allotments (less
    than I, 10, 20, and 30 percent utilization as described in EPA's Mobile Device Service Review and
    Optimization Analysis) and terminate service where appropriate.

    Concur. OPRO will include in the planned SOP a quarterly review of zero usage reports from the cell
    carriers and termination of service where appropriate. Utilization of plan minutes is not the best
    indicator of device use, as a review of Service reports indicates that many users with high use of their
    device primarily use the data functions of the MD for text and email, while using only a minimal number
    of voice minutes.




    12-P-0427                                                                                               20
i.	 Require end users to notify their property staff when they no longer need a device, transfer to another
    EPA program office, or leave the Agency. Instruct end users on the proper procedure for turning in their
    MDs.

    Concur. OPRO will include within the planned SOP for employee provisioning/deprovisioning a step that
    the employee notifies property staff if they no longer need a device. In addition, OPRO will ensure that
    the SOP for the custodial officer and WCF account manager includes coordination of a quarterly review
    of employee devices and usage.

2.	 Follow up with OEI managers and determine:

a.	 Whether there is a valid business case justification for those staff using multiple MDs, and determine
    whether one of the devices should be returned to the Agency.

    Concur. The planned SOP will develop standardized business case justifications for issuing a MD that
    supervisors can utilize. In cases where multiple devices have been issued, OEI will develop the SOP to
    require supervisors to review justifications annually by coordinating with the WCF account manager.

b.	 Whether the international calls made during January-June 2011 by the remaining 19 OEI employees and
    contractors we identified in our sample of 27 were inappropriate, and take action based on SOPs
    developed per recommendation 1.

    Concur. OEI plans to follow up with managers and determine if the identified employees fall within the
    Agency's conduct and discipline Order and the Agency's Disciplinary Handbook. For contractors that
    have been identified, OEI management will request the Contracting Officer and Contracting Officer
    Representative investigate the use of the MD and will take appropriate steps as allowed under the
    contract.

3.	 Finalize Agency-wide draft domestic and international MD procedures and develop other Agency-wide
    procedures as necessary that consider SOPs that encompass the areas listed in recommendation 1.

    Concur. 

    OEI believes that two actions should be created for this recommendation. 

       1.	 Finalize the procedure for domestic use which OEI OTOP leads.
       2.	 Finalize the procedure for international use which the OEI SAISO leads.

    OTOP Corrective Action: Finalize the draft Mobile Device and Wireless Procedure by the end of 

    calendar year 2012. 


    SAISO Corrective Action: A procedure addressing international travel for mobile devices has been
    drafted and we expect to have a final version by October 1, 2012.

    Should you have any questions regarding our corrective action plan, please contact Scott Dockum at 202-
    566-1914 or dockum.scott@epa.gov.




    12-P-0427                                                                                                21
cc: 	   Rudolph Brevard, Office of Inspector General, OMS
        Pat Hill, Office of Inspector General, OMS
        James McDonald, Office of Environmental Information, OPRO
        Robert McKinney, Office of Environmental Information, SAISO
        Vaughn Noga, Office of Environmental Information, OTOP
        Scott Dockum, Office of Environmental Information, OPRO




12-P-0427                                                             22
                                                                                Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Environmental Information




12-P-0427                                                                               23
